TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        The Purchase Card Program Lacks
                       Consistent Oversight to Identify and
                           Address Inappropriate Use



                                           June 20, 2013

                              Reference Number: 2013-10-056




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


THE PURCHASE CARD PROGRAM                            not have sufficient guidance to define what
LACKS CONSISTENT OVERSIGHT TO                        qualifies as a split purchase for office supplies,
IDENTIFY AND ADDRESS                                 which contributed to cardholders splitting
INAPPROPRIATE USE                                    purchases. Further, the controls the IRS
                                                     currently has in place do not include a review
                                                     specifically designed to detect personal use.
Highlights                                           The majority of IRS cardholders appear to use
                                                     their purchase cards properly. However, TIGTA
Final Report issued on June 20, 2013                 identified some instances of inappropriate use
                                                     that include improper decorative and give-away
Highlights of Reference Number: 2013-10-056          items for managers’ meetings and Combined
to the Internal Revenue Service Deputy               Federal Campaign fundraising events. In
Commissioner for Operations Support and the          addition, IRS representatives, who were
Deputy Commissioner for Services and                 entertaining foreign officials, used purchase
Enforcement.                                         cards to pay for multiple lunches, dinners, and
                                                     related alcohol purchases. For example, one
IMPACT ON TAXPAYERS                                  dinner had an approximate cost of $140 per
For the two fiscal years ending                      guest and another lunch cost $100 per guest.
September 30, 2011, the IRS made more than           TIGTA did not find any Department of the
273,000 micro-purchases totaling nearly              Treasury or IRS criteria to assess the
$108 million using purchase cards and                reasonableness of these charges, but TIGTA
convenience checks. The IRS does not have            considers the costs related to this entertainment
the controls in place to provide assurance that      to be high. Finally, the Credit Card Services
improper purchases do not occur and                  Branch did not report for consideration of
appropriate corrective action is taken.              potential disciplinary action all instances of
Enhanced internal controls would provide             inappropriate purchase card use that it
greater assurance that IRS resources are being       identified.
used more effectively and efficiently.               WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                              TIGTA recommended that the IRS update
Our previous work on the IRS purchase card           current purchase card guidance to require
program found that overall management controls       purchase card accounts to be closed prior to the
are not effective to ensure the appropriate use of   date of a cardholder’s separation, reduce
IRS purchase cards. The overall objective of         pending transactions, and enhance guidance to
this review was to assess the effectiveness of       clearly define what constitutes a split purchase.
IRS processes to identify questionable and           TIGTA also recommended that the IRS develop
abusive purchase card transactions.                  an oversight process to identify IRS employee
                                                     personal use of purchase cards and other
WHAT TIGTA FOUND                                     inappropriate purchase card transactions.
                                                     Finally, TIGTA recommended that the IRS
While some controls are working as intended,         require the Credit Card Services Branch to
the IRS purchase card program lacks consistent       report all instances of potential inappropriate use
oversight to identify and address inappropriate      of purchase cards identified to the Labor and
use. TIGTA determined that the IRS does not          Employee Relations function for potential
have a policy in place to timely cancel purchase     disciplinary action.
cards prior to employee separation. Of the
387 cards associated with employees who              In their response, IRS management agreed with
separated during our audit period, 98 percent        all 11 recommendations and plans to develop
were not closed prior to employee departure.         and implement corrective actions.
TIGTA believes this could leave the IRS
vulnerable to misuse. In addition, the IRS did
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                June 20, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                THE OFFICE OF DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Purchase Card Program Lacks Consistent
                              Oversight to Identify and Address Inappropriate Use
                              (Audit # 201210020)

 This report presents the results of our review to assess the effectiveness of Internal Revenue
 Service (IRS) processes to identify questionable and abusive purchase card transactions. This
 review was conducted as part of the Treasury Inspector General for Tax Administration’s Fiscal
 Year1 2013 Annual Audit Plan and addresses the major management challenge of Fraudulent
 Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).




 1
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
 on October 1 and ends on September 30.
                                  The Purchase Card Program Lacks Consistent
                                Oversight to Identify and Address Inappropriate Use




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Purchase Card Oversight Reviews Did Not Identify All Instances of
          Inappropriate Use .......................................................................................... Page 6
                    Recommendation 1:........................................................ Page 8

                    Recommendations 2 and 3: .............................................. Page 12

          Consistency Is Needed in Identifying and Reporting Inappropriate Use ..... Page 13
                    Recommendations 4 and 5: .............................................. Page 15

          Improper and Potentially Fraudulent Purchases Were Identified ................. Page 15
                    Recommendation 6:........................................................ Page 18

                    Recommendations 7 and 8: .............................................. Page 19

          The Convenience Check Program Lacks Consistent Oversight ................... Page 19
                    Recommendations 9 through 11: .............................................. Page 25


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 26
          Appendix II – Major Contributors to This Report ........................................ Page 31
          Appendix III – Report Distribution List ....................................................... Page 32
          Appendix IV – Outcome Measures............................................................... Page 33
          Appendix V – Management’s Response to the Draft Report ....................... Page 35
           The Purchase Card Program Lacks Consistent
         Oversight to Identify and Address Inappropriate Use




                   Abbreviations

ALERTS       Automated Labor and Employee Relations Tracking System
CCS          Credit Card Services
CFC          Combined Federal Campaign
FY           Fiscal Year
IRS          Internal Revenue Service
PALS         Property Appraisal Liquidation Specialists
PTSP         Public Transportation Subsidy Program
TIGTA        Treasury Inspector General for Tax Administration
                             The Purchase Card Program Lacks Consistent
                           Oversight to Identify and Address Inappropriate Use




                                            Background

The Internal Revenue Service (IRS) is a participant in the General Services Administration’s
SmartPay purchase card program. This program was created in the late 1980s as a way for
agencies to streamline the Federal acquisition process by providing a low-cost, efficient vehicle
for obtaining goods and services directly from vendors. The Debt Collection Improvement Act
of 19961 requires that, with limited exceptions, Federal payments be made through electronic
means. The purchase card is an affordable and convenient means for making electronic
payments, and the Federal Acquisition Regulation2 designated the purchase card as the preferred
method for making purchases up to $3,000.3 In order to accommodate purchases from vendors
who do not accept credit cards, the SmartPay purchase card program also has a convenience
check component that is to be used only as a payment of last resort because the Department of
the Treasury has determined that use of checks do not qualify as electronic payments.4
While the use of purchase cards has been credited with reducing administrative costs and
simplifying the acquisition process, Federal audits of agency purchase card programs have found
varying degrees of waste, fraud, and abuse. One of the most common risk factors identified is a
weak internal control environment. In a prior audit,5 we found that while some internal controls
are working as intended, overall, the IRS’s internal controls over the purchase card program are
not effective to ensure the appropriate use of the cards. The audit report recommendations
included placing a renewed emphasis on cardholder compliance with and agency enforcement of
policies, improving and expanding oversight reviews, and providing additional guidance for
cardholders. According to the Office of Management and Budget, internal control weaknesses




1
  Public Law 104-134 (Apr. 1996).
2
  48 C.F.R. §13.201 (b) (May 2011).
3
  For the purposes of this audit, we discuss the use of the purchase card primarily for micro-purchases less than
$3,000 ($2,500 for services and $2,000 for construction). We did not audit Treasury Commercial Vehicle cards.
For our review of inappropriate purchase card use, we did include Warranted Contracting Officer cards. We did
audit all components of the convenience check program, including Warranted Contracting Officers with
convenience check privileges.
4
  Convenience checks may not be written for: purchases above the micro-purchase limits; vendors who accept the
purchase card; vendor transactions already under another method of acquisition; employee reimbursements; cash
advances; salary payments, cash awards, or any transactions processed through the payroll system;
travel-related transportation tickets; meals or lodging related to employee travel except as related to emergency
incident response; and other restrictions as determined by Agency policy.
5
  Treasury Inspector General for Tax Administration, Ref. No. 2011-10-075, Controls Over the Purchase Card
Program Were Not Effective in Ensuring Appropriate Use (Aug. 2011).


                                                                                                           Page 1
                            The Purchase Card Program Lacks Consistent
                          Oversight to Identify and Address Inappropriate Use



may affect the IRS’s ability to provide reasonable assurance that the objectives of effective and
efficient operations and compliance with applicable laws and regulations are achieved.6
During Fiscal Years (FY)7 2010 and 2011, the IRS purchase card program included
5,241 micro-purchase card accounts. The purchase cardholders made approximately
234,000 purchases totaling $103.2 million with these cards. In addition, 53 purchase cardholders
have access to convenience checks that are linked to their purchase card accounts. IRS
convenience check writers wrote approximately 39,000 checks totaling $4.4 million during this
period, with an additional cost of $128,000 in check fees. Figure 1 shows that the trend of
purchase card usage remained stable during this period at an average of about $965,000 per
week.
             Figure 1: Weekly Purchase Card Expenditures FYs 2010–2011




Source: Our analysis of the universe of 234,000 purchase card debit transactions made during FYs 2010 and 2011.
The purchases are summarized by week, and the line represents the trend of purchase card expenditures over time.
This analysis does not account for account credits resulting from returned items.




6
  Office of Management and Budget, Circular No. A-123, Appendix B, Improving the Management of Government
Charge Card Programs (Jan. 2009).
7
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.


                                                                                                        Page 2
                             The Purchase Card Program Lacks Consistent
                           Oversight to Identify and Address Inappropriate Use



Convenience check usage, however, decreased dramatically over time, primarily due to the
discontinuation of the use of convenience checks in one of the IRS’s programs that is now
exclusively using an electronic form of payment (Figure 2).
          Figure 2: Weekly Convenience Check Expenditures FYs 2010–2011




Source: Our analysis of the universe of 39,000 convenience checks posted to purchase card accounts during
FYs 2010 and 2011. The purchases are summarized by week, and the line represents the trend of convenience check
expenditures over time. This analysis does not include any convenience check fees or credits for checks where the
payment was later stopped.

The Federal Acquisition Regulation establishes criteria for using purchase cards to make
payments.8 In addition, the Office of Management and Budget provides oversight of the
purchase card program and has issued guidance which establishes minimum requirements for
Government purchase card programs and suggested best practices.9 Office of Management and
Budget policy requires that agencies, among other things:
       Develop and maintain written policies and procedures that should be updated annually, or
        more frequently, to remain current.



8
 48 C.F.R § 13 (Mar. 2012).
9
 Office of Management and Budget, Circular No. A-123, Appendix B, Improving the Management of Government
Charge Card Programs (Jan. 2009).


                                                                                                         Page 3
                            The Purchase Card Program Lacks Consistent
                          Oversight to Identify and Address Inappropriate Use



        Provide mandatory training to purchase cardholders and other participants such as
         approving officials and agency/organization program coordinators.
        Implement risk management controls such as reviewing cardholder statements, ensuring
         separation of duties, maintaining a master file of cardholder records, performing reviews
         to detect misuse, maintaining and communicating disciplinary policy for misuse, and
         ensuring that property is accounted for, including sensitive and accountable property.
        Use convenience checks as a payment of last resort when vendors do not accept the
         purchase card, for emergency incident response, and for other agency-approved
         purchases that comply with the Debt Collection Improvement Act of 1996.
The IRS’s purchase card policy is set forth in the Purchase Card Program Handbook and the
Purchase Card Guide.10 The IRS Restricted Purchase list also provides cardholders detailed
information on what is and is not an acceptable purchase.11 Within the IRS, the Office of
Procurement is responsible for providing policy guidance for the purchase card program as it
relates to acquisition regulations, and the Credit Card Services (CCS) Branch is responsible for
managing and providing oversight for the purchase card program. The CCS Branch’s
responsibilities include processing new account applications and performing account
maintenance, providing training, issuing program guidance, and performing periodic program
reviews. In addition, the CCS Branch is responsible for tracking and reporting to the Labor and
Employee Relations function (hereafter referred to as Labor Relations)12—the IRS office
responsible for advising and supporting managers on employee conduct and performance-related
matters—instances of alleged inappropriate purchase card use as part of the process for
determining and implementing the appropriate disciplinary action.
We analyzed data and information obtained from the Agency-Wide Shared Services, Employee
Support Services, CCS Branch managers located in Jacksonville, Florida; Indianapolis, Indiana;
and Nashville, Tennessee, during the period June 2012 through January 2013. This review
focused on micro-purchase card transactions and internal controls in place in FYs 2010 and
2011. We assessed the design and implementation of four key internal controls responsible for
preventing, detecting, and deterring inappropriate use. We did not evaluate other controls such
as those related to training, funding, receipt and acceptance, timely payment and maximization of
rebates, or tracking and monitoring sensitive and accountable property. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to


10
   Internal Revenue Manual 1.32.6 (Jan. 21, 2010) and Document 9185, Internal Revenue Service Purchase Card
Guide (Jan. 2012).
11
   Policy and Procedures Memorandum No. 70.11, Internal Revenue Service Restricted Purchase List (June 2011).
12
   Labor and Employee Relations is a function in the Human Capital Office within the Workforce Relations
Division.


                                                                                                       Page 4
                         The Purchase Card Program Lacks Consistent
                       Oversight to Identify and Address Inappropriate Use



provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 5
                              The Purchase Card Program Lacks Consistent
                            Oversight to Identify and Address Inappropriate Use




                                       Results of Review

Purchase Card Oversight Reviews Did Not Identify All Instances of
Inappropriate Use
Although the IRS has controls to prevent inappropriate use, weaknesses in CCS Branch
procedures to identify, report, and address inappropriate use leaves the IRS purchase card
program vulnerable to repeated violations of applicable laws and regulations. The CCS Branch
is responsible for both conducting periodic purchase card program oversight reviews to detect
inappropriate use and reporting instances of inappropriate use to Labor Relations for disciplinary
review. We evaluated two purchase card oversight reviews (purchase card cancellation review
and split purchase review) the CCS Branch conducted in FYs 2010 and 2011 for effectiveness in
identifying inappropriate use and the corrective actions taken as a result of the reviews. We
re-performed these reviews and found that the reviews did not identify, and the CCS Branch did
not report, all instances of purchase card inappropriate use that we identified. While each review
identified some instances of potential inappropriate use, we found that the two CCS Branch
reviews each had at least one control weakness in identifying the inappropriate use, addressing
the inappropriate use, or pursuing disciplinary action. Until the CCS Branch strengthens internal
guidance and compliance reviews and becomes more diligent about reporting inappropriate use,
the IRS will remain vulnerable to violations of purchase card laws and regulations and a
potential waste13 of resources through inappropriate use.

Purchase cards are not timely cancelled when a purchase cardholder leaves the
IRS
We found that 378 (98 percent) of the 387 purchase cards were not cancelled prior to employee
departure, despite the IRS’s agreement to establish a procedure to timely cancel purchase cards
in response to a recommendation from a prior Treasury Inspector General for Tax
Administration (TIGTA) report.14
The Purchase Card Guide does not make explicit the procedure or time period for closing
purchase card accounts when an employee separates. Instead, it directs the cardholder not to


13
   According to Office of Management and Budget, Circular A-123, Appendix B, (Revised Jan. 2009), waste is
defined as any activity taken with respect to a Government charge card that fosters, or results in, unnecessary costs
or other program inefficiencies.
14
   TIGTA, Ref. No. 2000-10-051, Former Employees Had Access to Internal Revenue Service Credit Cards and
Computers (Apr. 2000).


                                                                                                              Page 6
                           The Purchase Card Program Lacks Consistent
                         Oversight to Identify and Address Inappropriate Use



take action to close their account when leaving the IRS’s employment because purchase card
accounts will be closed automatically. Although we found that purchase card accounts are not
automatically closed when cardholders leave the IRS, the CCS Branch does have a process in
place to close the accounts once all open purchase orders have been processed.
Our FY 2000 report found that the IRS had not ensured that access to Government credit cards
(including purchase cards) was timely cancelled when cardholders left the IRS. TIGTA
recommended that the IRS close purchase card accounts prior to or on the day of employee
separation, or upon notification that the employee has left the IRS. The IRS agreed to set up a
procedure to timely cancel purchase cards; however, it did not modify the Purchase Card Guide
or the Purchase Card Program Handbook to include a policy to close accounts prior to or on the
date of cardholder separation.
In FYs 2010 and 2011, 387 purchase cardholders separated from the IRS. The CCS Branch took
an average of nine calendar days to close out the purchase card accounts during the period in our
review; however, 20 percent of the purchase card accounts took longer than 10 calendar days to
close after employee separation. Four purchase card accounts took more than 90 calendar days
to close after employee separation, and the longest time to account closure was 252 calendar
days, more than eight months after the employee left the IRS. Figure 3 shows the length of time
from employee separation to purchase card account closure broken out by fiscal year.
  Figure 3: Time From Employee Separation to Purchase Card Account Closure
                             FYs 2010 and 2011




  Source: Our analysis of the universe of 387 purchase card accounts associated with cardholders who left the
  IRS’s employment during FYs 2010 and 2011.


                                                                                                        Page 7
                             The Purchase Card Program Lacks Consistent
                           Oversight to Identify and Address Inappropriate Use



From the 387 purchase cardholders who separated from the IRS in FYs 2010 and 2011, we
identified 17 purchase cards with 38 transactions that occurred after the cardholder’s separation
date.15 A total of 28 purchase card transactions totaling $9,000 transpired between one and
18 calendar days following employee separation. Ten convenience check transactions totaling
$800 posted to the purchase card accounts between 21 and 147 calendar days following
separation. It is the CCS Branch’s practice to keep purchase card accounts open when the
account has an approved purchase waiting for the vendor to process a charge. This was the case
for all the transactions that we determined took place after the employees’ separation. For the
28 transactions that were charged to the purchase cards, 27 were initiated by the cardholders
prior to separation, and the vendors took additional time to charge the purchase cards, resulting
in the transactions posting after the cardholders’ separation. However, in one case, a vendor
charged a recurring payment for equipment rental to one separated employee’s card because that
was the card the vendor typically charged and the IRS left the card account open due to another
pending transaction.
The Purchase Card Guide contains direction for the approving officials for handling pending
transactions in the absence of the cardholder, but does not include time frames for account
closure after employee separation or specific guidance for handling transactions pending at the
time of employee separation. Each of the 38 transactions that we identified after an employee’s
separation represented a legitimate business need; however, not timely closing purchase card
accounts when employees separate from the IRS exposes the IRS to risks of financial loss by the
separated employee or another individual using the card.

Recommendation
Recommendation 1: The Chief, Agency-Wide Shared Services, should update current
purchase card guidance to require the CCS Branch to close purchase card accounts prior to the
date of a cardholder’s separation from the IRS to ensure that the number of pending transactions
is minimized.
        Management’s Response: The IRS agreed with this recommendation and will:
        1. Update purchase card guidance to advise purchase cardholders, purchase card
           approving officials, and/or managers to report a purchase cardholder’s pending
           separation from the IRS to the CCS Branch for card closure.
        2. Review Employee Clearance Reports for upcoming separations and take action to
           close purchase card accounts.

15
  Of the 38 transactions that occurred after the cardholder separated, two were merchant credits and two were
credits for fees charged by the credit card company. The purchase card accounts with credits also had merchant
charges on or after the cardholder’s separation date.


                                                                                                          Page 8
                            The Purchase Card Program Lacks Consistent
                          Oversight to Identify and Address Inappropriate Use



        3. Reduce the purchase card limit and restrict the merchant category code(s) to only
           allow pending transactions to process for accounts that cannot be closed prior to the
           cardholder’s separation from the IRS.

Purchase cardholders continue to split purchases to circumvent established
micro-purchase limits
Cardholders continue to split purchases into multiple transactions, and the CCS Branch is still
not effectively identifying, evaluating, or referring cardholders who split purchases for potential
disciplinary action. When purchases are split in this manner, normal procurement policies and
procedures are not followed and the micro-purchase/single-transaction dollar limits are
circumvented. Split purchase transactions can also result in the overpayment for goods and
services. The CCS Branch did not evaluate all potential split purchases we identified or refer for
potential disciplinary action all cardholders who split purchases as a result of insufficient
guidance explaining specific split purchase scenarios.
One of the primary functions of the purchase card is to simplify the acquisition process by
allowing employees to obtain necessary supplies to perform their duties without requiring the
expertise of a contracting officer to make the purchase. Federal regulations allow a purchase
cardholder to make micro-purchases where the total cost of the purchase does not exceed $3,000
($2,500 for supplies; $2,000 for construction). The IRS purchase card program has card limits in
place that prevent a purchase card from processing a single transaction that exceeds $3,000—the
upper bound of the micro-purchase limit. When a purchase cardholder coordinates with a vendor
to have a purchase split into multiple transactions to circumvent the card limits, this is called
splitting a purchase, and it is a violation of Federal regulations and IRS policy.16 If a cardholder
requires goods or services from a vendor that exceed the micro-purchase threshold, the
cardholder is required to notify the Office of Procurement so the appropriate competitive process
is used to ensure that the IRS gets the best value for the items required.
Our FY 2011 report identified IRS purchases that were potentially split into two or more
transactions to circumvent purchase limits. TIGTA made several recommendations, including
making modifications to the split purchase oversight reviews to look at the entire population of
purchase transactions for potential split purchases. The IRS agreed to our recommendations and
began implementing a new quarterly split purchase oversight review for purchase card
transactions posting after April 3, 2011. These reviews were designed to analyze all IRS
purchase card transactions in the review period to identify groups of transactions that were made



16
  48 C.F.R. 13.003 (b)(1) (Mar. 2012), 13.201 (May 2011), 13.202 (Dec. 1997), 13.301 (Dec. 2009); Internal
Revenue Manual 1.32.6.7.4 (Jan. 2010); and Document 9185, Internal Revenue Service Purchase Card Guide,
(Jan. 2012).


                                                                                                        Page 9
                              The Purchase Card Program Lacks Consistent
                            Oversight to Identify and Address Inappropriate Use



by a single cardholder, on the same day, with the same vendor, and a total purchase price that
exceeds $3,000.17 Figure 4 depicts the components of a potential split purchase.
            Figure 4: Components of a Potential Split Purchase Transaction




Source: Our depiction of the components of a potential split purchase that the IRS split purchase review intended to
identify: one card, one day, one vendor, and multiple transactions that total more than $3,000. A split purchase
can also occur with the same vendor over multiple days, or on the same day when the same or similar items are
purchased from multiple vendors.

The design and implementation of the oversight review intended to identify potential split
purchases is only somewhat effective. The first quarterly review evaluated 28,700 purchase card
transactions totaling approximately $12 million. The CCS Branch identified 296 potential split
purchase transactions in this review. During the second quarterly review, the CCS Branch
evaluated 37,500 purchase card transactions totaling approximately $17 million and identified
another 523 potential split purchases.18
We re-performed the CCS Branch quarterly reviews to identify groups of two or more
transactions that were:
        Performed by the same cardholder.
        Conducted with the same vendor.
        Charged on the same day.


17
   A split purchase may include transactions that occur over a number of days. The oversight review test is designed
to detect the most likely split purchase transactions that occur on a single day, but it cannot detect every instance of
a split purchase.
18
   The first quarterly review period was from April 4, 2011, through July 3, 2011 (referred to as April – June). The
second quarterly review period was from July 4, 2011, through October 3, 2011 (referred to as July – September).


                                                                                                              Page 10
                             The Purchase Card Program Lacks Consistent
                           Oversight to Identify and Address Inappropriate Use



        In excess of $3,000.
For both quarterly review periods, we identified the same transactions that the CCS Branch
identified as well as additional potential split purchase transactions. In total, we identified
244 potential split purchases that the IRS’s reviews did not identify. Figure 5 shows the
proportion of potential split purchase transactions that the CCS Branch identified in comparison
to those that we identified for the same time period.
        Figure 5: Potential Split Purchase Transactions April–September 2011




Source: Our analysis of 66,200 purchase card transactions for potential split purchases using the criteria of a
single purchase card, single date, single vendor, and multiple transactions exceeding $3,000 in total.

The IRS’s analysis of these 1,063 potential split purchase transactions determined the following:
        327 of the 819 transactions that the CCS Branch identified in its reviews were
         components of 112 split purchases totaling $448,000.
        34 of the 244 transactions that our tests identified were components of 11 split purchases
         totaling $45,100.
The CCS Branch determined that 74 of the 244 transactions that we identified were not split
purchases. For the remaining 136 potential split purchase transactions totaling $154,000, the
CCS Branch would not make a determination on whether or not the transactions were actually
components of split purchases due to a lack of published internal guidance on how to define split
purchases of desktop supplies such as paper, toner, and general office supplies. Our prior audit
recommended that the IRS update the Purchase Card Guide to include examples of split purchase
scenarios. While the January 2012 update of the Purchase Card Guide did include three split
purchase examples—outservice training, towing, and recurring expenses—the update did not


                                                                                                           Page 11
                         The Purchase Card Program Lacks Consistent
                       Oversight to Identify and Address Inappropriate Use



include a scenario to address the most commonly occurring split purchase which is desktop
supplies.
In addition, the CCS Branch did not refer confirmed instances of split purchases to Labor
Relations as required. Splitting a purchase is a violation of Federal regulations and IRS policy
which dictate that inappropriate use will be referred to Labor Relations for review and
recommendation on the appropriate disciplinary action. The CCS Branch confirmed that
361 transactions were components of 123 split purchases from April 4, 2011, through
October 3, 2011. The total value of the split purchases was more than $493,000 (2 percent) of
the approximately $29 million spent during that period. Ninety-four cardholders were
responsible for the split purchases identified, and 22 of those cardholders split purchases more
than once within a six-month period. One cardholder split five purchases into 13 transactions
totaling almost $22,000. However, the CCS Branch did not refer any of the cardholders who
split the purchases, including the 22 cardholders who made split purchases more than once, to
Labor Relations for a determination on the appropriate disciplinary action. The CCS Branch
stated that due to a lack of internal guidance, it would not pursue disciplinary action in these
cases. While the IRS may have had a valid business need to purchase these items, it should have
used another procurement method.

Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 2: Improve split purchase oversight reviews conducted by the CCS Branch
by using data analysis techniques to identify all groups of transactions that occur by a single
cardholder, on the same day, with the same vendor, and a total purchase price that exceeds
$3,000. In addition, require the CCS Branch to conduct an analysis to determine which
purchases identified were split to circumvent procurement policies and report all cardholders
who split purchases to Labor Relations for disciplinary review, tracking, and appropriate
disciplinary action.
       Management’s Response: The IRS agreed with this recommendation and will
       update the review guidelines for identifying split purchases to ensure that all transactions
       by a single cardholder, on the same day, with the same vendor, and with a total purchase
       price that exceeds the individual’s single transaction limit are identified. The IRS will
       analyze what is identified and refer all confirmed split purchases to Labor Relations.
Recommendation 3: Update the IRS Purchase Card Guide and current policy to include
examples to clearly explain scenarios that constitute a split purchase of desktop supplies.
       Management’s Response: The IRS agreed with this recommendation and stated that
       the Purchase Card Guide will be revised with the Office of Procurement Policy’s updated


                                                                                           Page 12
                           The Purchase Card Program Lacks Consistent
                         Oversight to Identify and Address Inappropriate Use



       definition of a split purchase. Examples of supplies and services purchases will be
       updated in the Purchase Card Guide to explain the definition of a split purchase.

Consistency Is Needed in Identifying and Reporting Inappropriate Use
While most purchase cardholders comply with agency policies and use their purchase cards and
convenience checks appropriately, some misuse does occur. The CCS Branch identified more
than 249 inappropriate purchase card transactions during FYs 2010 and 2011. Of those instances
identified, the CCS Branch failed to refer 149 inappropriate transactions to Labor Relations for
disciplinary review and tracking within the Automated Labor and Employee Relations Tracking
System (ALERTS). The CCS Branch made a decision not to refer to Labor Relations the
employees who made these transactions due to a lack of clear written guidance on specific types
of purchases and in situations where the CCS Branch elected to use internal training to correct
the employee’s behavior. In addition, disciplinary actions taken by IRS managers against
employees who misused their purchase cards are consistently less than recommended by IRS
penalty guidelines. In FYs 2010 and 2011, the IRS identified and reported to Labor Relations
inappropriate use such as cardholders exceeding the single transaction limit, purchases without
prior funding or approvals, items from the restricted purchase list, and split purchases. Figure 6
shows the distribution of inappropriate use identified and reported by category and fiscal year.
         Figure 6: IRS Referrals to Labor Relations – Categories of Misuse




     Source: Our analysis of 100 purchase card referrals the CCS Branch provided to IRS Labor Relations
     in FYs 2010 and 2011.

The CCS Branch did not refer all identified cases of inappropriate use to Labor Relations as
required. When the CCS Branch conducts its oversight reviews of the purchase card program, it
                                                                                                    Page 13
                         The Purchase Card Program Lacks Consistent
                       Oversight to Identify and Address Inappropriate Use



is responsible for documenting inappropriate use and forwarding the cases to Labor Relations.
During FYs 2010 and 2011, the CCS Branch identified 30 cases of convenience check misuse as
part of its oversight reviews or at the time of check issuance, yet the CCS Branch reported only
four of the identified cases to Labor Relations as required. In addition, the CCS Branch
confirmed that 361 transactions were components of 123 split purchases from April 4, 2011,
through October 3, 2011. However, the CCS Branch did not refer any of the 94 cardholders who
split the purchases, including those cardholders who split purchases more than once, to Labor
Relations for review and consultation with IRS management who makes a determination on the
appropriate disciplinary action. A referral for corrective and disciplinary action could have
reduced the number of cardholders that made split purchases more than once. For example, our
review of split purchases determined that 22 of the 94 cardholders who were responsible for the
split purchases identified made split purchases more than once, splitting between two and five
purchases during the six-month review period.
In addition, the Office of Chief Counsel (Chief Counsel) did not evaluate for the appropriate
disciplinary action five cases of inappropriate use identified by the CCS Branch. It is Labor
Relations’ practice to forward cases associated with Chief Counsel employees to Chief Counsel
for its own determination on the appropriate disciplinary action. Chief Counsel cases are not
documented in the ALERTS the same way that all other cases of employee infractions are
documented. We became aware of the cases when the CCS Branch provided us with all of the
cases of inappropriate use it identified in the audit period. A representative from Chief Counsel
stated that no action was taken on the five purchase card inappropriate use cases that were
referred by the CCS Branch. The Chief Counsel employees who received the reports did not
understand that the reports were related to potential employee infractions. Rather, these
employees considered the reports to be informational highlighting procurement “mistakes” that
needed to be corrected to obtain the requested items, not information on potential employee
infractions that may require action.
The IRS penalty guide provides a range of disciplinary actions that can be applied for each
violation of policy or inappropriate use. On a case-by-case basis, there may be a level of
variation in the disciplinary actions administered depending on other mitigating factors, such as
past work performance, prior disciplinary record, and whether the infraction is a first offense.
However, we determined that actions taken for FYs 2010 and 2011 referrals were consistently
less than IRS penalty guidelines. Ninety-three of the 100 referrals for purchase card misuse
resulted in disciplinary actions by IRS managers that were less severe than those suggested in the
IRS penalty guidelines. IRS guidelines ultimately give IRS managers the flexibility to deviate
from suggested corrective discipline depending on the facts and circumstances of each case.
However, Federal guidelines on penalties for inappropriate use suggest at least a letter or
counseling for a first offense. Eight of the cases that were referred for potential inappropriate
use did not meet that minimum standard. The lack of consistent action to address purchase card
misuse reduces the overall effectiveness of controls over the purchase card program, provides a


                                                                                          Page 14
                             The Purchase Card Program Lacks Consistent
                           Oversight to Identify and Address Inappropriate Use



no deterrent factor for purchase card misuse, and leaves the purchase card program vulnerable to
repeated violations of applicable laws and regulations.

Recommendations
Recommendation 4: The Chief, Agency-Wide Shared Services, should require the CCS
Branch to report all instances of potential inappropriate use of purchase cards, identified through
program oversight reviews or other means, to Labor Relations for disciplinary review and
tracking in the ALERTS.
        Management’s Response: The IRS agreed with this recommendation and will refer
        all instances of confirmed inappropriate use, identified through purchase card program
        oversight reviews or other means, to Labor Relations for review and tracking in the
        ALERTS.
Recommendation 5: Chief Counsel should require management to evaluate all instances of
potential inappropriate use of purchase cards by Chief Counsel employees that are forwarded
from Labor Relations and take appropriate action.
        Management’s Response: The IRS agreed with this recommendation and stated that
        on or before March 30, 2013, Chief Counsel instituted a process requiring management
        officials to evaluate all referrals of potential inappropriate use of purchase cards by
        employees that were received from Labor Relations.

Improper and Potentially Fraudulent Purchases Were Identified
While we did not find a significant amount of improper purchases in our limited testing,19 we
found instances of improper use related to managers’ meetings, team-building exercises, and
Combined Federal Campaign (CFC) fundraising activities. According to the Office of
Management and Budget, an improper purchase is any purchase that should not have been made
or that was made in an incorrect amount under statutory, contractual, administrative, or other
legally applicable requirements.20


19
   We selected a judgmental sample of 288 purchase card transactions based on item descriptions, merchant names,
and merchant category codes that were indicators of potentially improper purchases. We conducted an in-depth
analysis of transaction documentation and laws and regulations relating to 52 of the 288 transactions that we found
most likely to be improper. We determined that 10 of the 52 transactions were improper, and we referred an
additional 38 potentially fraudulent transactions, in addition to the 52 transactions, to TIGTA’s Office of
Investigations for further research. A judgmental sample is a nonstatistical sample, the results of which cannot be
used to project to the population.
20
   Office of Management and Budget, Circular No. A-123, Appendix B, Improving the Management of Government
Charge Card Programs (Jan. 2009).


                                                                                                          Page 15
                             The Purchase Card Program Lacks Consistent
                           Oversight to Identify and Address Inappropriate Use



We identified almost $4,000 in improper decorative and give-away items that were approved
through the required IRS process. When these improper transactions were presented to IRS
management, they did not concur with our assessment that these items were inappropriate. The
IRS does not have an oversight process currently in place to identify potentially inappropriate
items purchased, such as items purchased for personal use or cardholders who may be abusing
the purchase card. This represents a control weakness because it is the CCS Branch’s functional
responsibility to identify and refer instances of inappropriate use.
When we presented to the IRS the instances of improper purchases we identified, it held that
Federal law supports purchases for training, decorative items, and use of appropriated funds to
support CFC expenditures; however, our review of the applicable authorities determined that
these items were improper.21 Figure 7 shows examples of the types of improper purchases
identified in our review.
                       Figure 7: Improper Purchase Card Transactions

                                      Items Purchased                                        Amount
         Popcorn machine rental, game rentals, and give-away prizes such
         as sports balls, bandanas, plush animals, sunglasses, and Stove                       $3,152
         Top Hats for CFC Events.
         Novelty decorations and give-away items, such as kazoos, bathtub
         toy boats, and Thomas the Tank Engine rubber wristbands, for                            $418
         managers’ meetings.
         Toys purchased for team-building exercise and distributed to
                                                                                                 $161
         participants.
         Nerf footballs purchased for a team-building exercise but never
                                                                                                 $119
         used and currently stored in a filing cabinet.
         Jigsaw puzzle and world’s largest crossword puzzle purchased for
                                                                                                   $89
         team building.
         Total                                                                                 $3,939
       Source: Our analysis of 52 transactions identified these transactions as indicative of improper use.



21
  For the training purchases we reviewed: Government Organization and Employees 5 U.S.C. § 4109, 5 C.F.R. §
410.401(a), as well as 5 U.S.C. § 4101(4); for decorative items we reviewed: 60 Comp. Gen. 580 (1981), 41 C.F.R.
§ 101-26.103-2, 57 Comp. Gen. 385 (1978), as well as 51 Comp. Gen. 797 (1972); for CFC expenditures we
reviewed: 31 U.S.C. § 1301(a), 10 Op. Off. Legal Counsel 9 (1986), 1996 U.S.C Comp. Gen. LEXIS 414 (1996),
67 Comp. Gen. 254 (1988), 70 Comp. Gen. 248 (1991) as well as the CFC regulations, 5 C.F.R. § 950; and for
entertainment for foreign officials we reviewed: B-20085 (1941) and 14 Comp. Dec. 344 (1907).


                                                                                                          Page 16
                             The Purchase Card Program Lacks Consistent
                           Oversight to Identify and Address Inappropriate Use



The IRS correctly claims that it may use appropriated funds to purchase items related to CFC
fundraising events; however, the necessary expense rule22 states that the expenditure must be
logically related, as determined by the agency, to the appropriation’s objective and contribute to
the agency’s mission. The U.S. General Accounting Office23 previously found similar IRS CFC
purchases improper because those items are not essential to supporting the CFC.24 Finally,
decorative items and give-away items for personal use are on the Department of the Treasury’s
Do Not Buy List and are improper purchases. However, the IRS stated that it considers these
items appropriate when purchased in conjunction with managers’ meetings and team-building
exercises. In addition to being prohibited, the purchase of these items, especially when they are
not used, is particularly wasteful.

Entertainment expenses
In addition, we identified $12,474 in entertainment-related purchase card expenditures connected
to a five-day International Executive Conference. In FY 2010, the IRS requested and was
authorized by the Office of Management and Budget to spend up to $126,500 for the purposes of
hosting a conference at which the attendees from many of the world’s largest countries met to
consider and discuss issues of global and national tax administration in their respective countries
and, specifically, mutual tax compliance challenges. The IRS was thus authorized to spend this
money for the purpose of entertaining foreign officials. However, we did not find any
Department of the Treasury or IRS criteria to assess the reasonableness of these entertainment
expenses. TIGTA considers the cost of the expenses related to this conference to be high. For
example, we identified a dinner at an approximate cost of $140 per person, four times the Federal
Government per diem rate in Washington, D.C. In addition, a lunch at this same conference cost
the IRS $100 per person, five times the Federal Government per diem rate in Washington, D.C.25
Further, the alcohol purchases at this luncheon, although allowed when entertaining foreign
Government officials, included more than 28 bottles of wine for 41 guests. In all, this week’s
meals, receptions, and meetings, which included multiple lunches, dinners, and catered
receptions, totaled more than $50,000.




22
   31 U.S.C. § 1301(a) (Jan. 2012).
23
   Effective July 7, 2004, the General Accounting Office’s name was changed to the Government Accountability
Office.
24
   Matter of: IRS Purchase of T-Shirts for Employees Contributing Certain Amounts to the Combined Federal
Campaign, 70 Comp. Gen. 248 (1991).
25
   The per diem rates for lunch and dinner in Washington, D.C., were $18 and $36, respectively, at the time this
conference occurred.


                                                                                                          Page 17
                              The Purchase Card Program Lacks Consistent
                            Oversight to Identify and Address Inappropriate Use



Potentially fraudulent purchases
We identified one purchase cardholder who made 38 transactions totaling $2,655 for what
appeared to be personal purchases and provided potentially falsified (or fraudulent) receipts to
justify the purchases made.26 Information that the vendor provided to the credit card company
indicates that this cardholder purchased diet pills, romance novels, steaks, a smart phone, and
baby-related items such as bottles, games, and clothing with her purchase card; however, the
cardholder claims that the same transactions were for reference books and office supplies. The
IRS does not currently perform an oversight review to evaluate merchant names or item
descriptions for potentially inappropriate transactions; however, such a review could have
identified the unnecessary items previously discussed as well as these purchases of potentially
personal items. We referred this matter to TIGTA’s Office of Investigations for further review.
Further, we identified two purchase cardholders with charges on their purchase cards from
merchants affiliated with online pornography. Each of these cardholders reported their card
stolen or compromised, one on multiple occasions, and had the charge for pornography credited
to the purchase card account. While we have not determined as part of this audit whether or not
the employees actually purchased the pornography and falsely reported the cards stolen or
compromised, we did discover that both of these former cardholders had multiple purchase card
accounts during the time that they were cardholders, and one of these cardholders had a total of
seven purchase card accounts, five of which were closed and reported by the employee as being
lost, stolen, or counterfeit. Currently, the IRS does not track the number of purchase card
account closures due to a lost, stolen, or compromised card, and it does not track whether a
cardholder reported a stolen or compromised card to the credit card company (Citibank) and
TIGTA’s Office of Investigations as required. Cardholders claiming numerous cards as lost or
stolen, particularly those with potentially fraudulent charges incurred, is a red flag that should
trigger further review by the IRS. In the case of both of the pornography charges, the
cardholders did not inform TIGTA of the fraudulent purchases on their accounts as required. We
referred the matter regarding the cardholder who is still employed by the IRS to TIGTA’s Office
of Investigations for further review.

Recommendations
Recommendation 6: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should reemphasize to all purchase cardholders,
supervisors, funding officials, and approving officials the importance of purchasing items only in
compliance with applicable authorities and necessary to complete their mission.


26
  Potentially fraudulent, for the purposes of this report, is any use of the purchase card in apparent violation of
Federal criminal statute or civil code.


                                                                                                               Page 18
                             The Purchase Card Program Lacks Consistent
                           Oversight to Identify and Address Inappropriate Use



        Management’s Response: The IRS agreed with this recommendation and will issue
        a communication to purchase cardholders, managers of purchase cardholders, approving
        officials, and funding officials to reemphasize the importance of only purchasing items in
        compliance with applicable authorities and necessary to complete their mission.
The Chief, Agency-Wide Shared Services, should:
Recommendation 7: Monitor and review purchase cardholder accounts and refer for
investigation cases of individuals with multiple account closures due to lost, stolen, or
compromised cards. Also, monitor whether cardholders report lost or stolen cards to TIGTA’s
Office of Investigations, as required, and follow up with cardholders to ensure that they follow
the proper procedures.
        Management’s Response: The IRS agreed with this recommendation and will
        develop a review process to identify multiple account closures due to lost, stolen, or
        compromised cards and refer cardholders who have multiple account closures with
        potential fraudulent activity to TIGTA for investigation. The IRS will follow up with
        cardholders to confirm they properly reported stolen/compromised cards to TIGTA.
Recommendation 8: Develop an oversight process to identify IRS employee personal use
and other inappropriate or abusive types of purchase card transactions.
        Management’s Response: The IRS agreed with this recommendation and will
        implement a review process to identify potential personal and/or inappropriate purchase
        card transactions.

The Convenience Check Program Lacks Consistent Oversight
The CCS Branch established preventive and detective reviews to manage, monitor, and verify
that cardholders are adhering to agency policies and procedures when using convenience checks.
However, in some instances controls are not implemented effectively, which increases the risk
for misuse and resulted in some policy noncompliance going undetected. The convenience
check program may also be vulnerable to misuse due to limited CCS Branch oversight over some
components of the program. Federal guidance and IRS policy require oversight of the
convenience check program; however, the IRS directly monitors only one out of four
convenience check programs.27 While we did not find any inappropriate personal use of the
convenience checks we reviewed, we determined that the CCS Branch did not report instances of
procedural misuse identified as part of the only oversight review that the CCS Branch performed.


27
  Transactions from the remaining three convenience check programs, Public Transportation Subsidy Program,
Property Appraisal Liquidation Specialists, and Office of Procurement, are included in a random sample of purchase
card transactions reviewed monthly by the CCS Branch.


                                                                                                         Page 19
                              The Purchase Card Program Lacks Consistent
                            Oversight to Identify and Address Inappropriate Use



In addition, when check writers received convenience check requests for uses that did not
conform to internal IRS policies and procedures, they knowingly issued the checks anyway.
Without enforcement of management’s directives, the IRS is vulnerable to inappropriate use of
the convenience check program and waste of resources.
Convenience check use was limited to 53 check writers from five program groups; however, at
the end of FY 2010, the Small Business/Self-Employed Division Lien Program ended its
convenience check program, which accounted for 69 percent of the total dollar amount of
convenience checks issued during FY 2010. Currently, there are four groups within the IRS that
have convenience check writing capabilities: the CCS Branch, the Public Transportation
Subsidy Program (PTSP),28 the Property Appraisal Liquidation Specialists (PALS),29 and the
Office of Procurement. Figure 8 shows the FY 2011 proportion of convenience check use by
program group.30 The CCS Branch, which may issue checks on behalf of anyone in the IRS,
accounts for $439,000 (46 percent) of the total dollar amount of convenience checks. The PTSP
makes up the next largest portion of the convenience check purchases with $320,000
(33 percent), and the PALS and Office of Procurement check writers account for $131,000
(14 percent) and $67,000 (7 percent), respectively.




28
   The PTSP offers reimbursements to employees for their commuting costs to work when they use public
transportation. Those who participate in vanpools or who live in a smaller community with public transportation
that does not participate in a national reimbursement program developed by the Department of Transportation are
issued convenience checks for their transportation reimbursement.
29
   The PALS travel regionally to assess, clean up, maintain, and prepare seized assets for sale. They require the use
of convenience checks because they often work with local vendors who do not accept credit cards.
30
   The FY 2011 composition of the convenience check program is a more accurate reflection of the current program
than the combined FYs 2010 and 2011 composition due to the Small Business/Self-Employed Division Lien
Program discontinuing the use of convenience checks as of March 2011.


                                                                                                            Page 20
                            The Purchase Card Program Lacks Consistent
                          Oversight to Identify and Address Inappropriate Use



             Figure 8: FY 2011 Convenience Check Use by Program Group




            Source: Our analysis of 3,438 convenience checks that posted in FY 2011.

No personal use of convenience checks identified
We did not identify any inappropriate personal use of the convenience checks we reviewed. The
Convenience Check Program Desk Guide31 outlines the appropriate use of the convenience
check. Some restrictions on convenience check use include a prohibition on vendors who accept
the purchase card, items on the restricted purchase list, using the convenience check to
circumvent electronic purchase card controls, and employee reimbursements. It is essential that
the convenience check is used only as a payment of last resort, such as when a vendor will not
accept another payment method and an alternate vendor is not available, because there are
additional fees associated with convenience check use—$1 per check plus 2 percent of the
purchase price. We reviewed a judgmental sample of transactions covering all four of the
convenience check programs to look for inappropriate use and specifically for personal use of the
convenience check.32 We selected transactions for review based on risk factors for inappropriate
use such as vendors that might not be related to a valid business need, frequency of vendor use,
or amounts approaching the single transaction limit. In addition, we compared all PTSP
reimbursements to personnel records to ensure that reimbursements were provided only to active

31
   Internal Revenue Service Desk Guide for Convenience Check Program (CCS internal document, dated
May 2011).
32
   We reviewed a judgmental sample of convenience checks issued in FYs 2010 and 2011 as follows: the CCS
Branch—492 of 2,240 checks written; the PALS—126 of 728 checks written; Office of Procurement—59 of
194 checks written; and the PTSP—all 3,895 checks written.


                                                                                                    Page 21
                         The Purchase Card Program Lacks Consistent
                       Oversight to Identify and Address Inappropriate Use



employees. We did not find any indications that check writers were inappropriately using the
selected convenience checks for personal use.

CCS Branch convenience check policy noncompliance
The CCS Branch’s first oversight review of the CCS Branch convenience check program did not
identify all instances of policy noncompliance. The CCS Branch convenience check program is
the largest of the four programs, and CCS Branch check writers are responsible for a high
volume of transactions. As a result, reviews of this program component are especially important
to protect the IRS from inappropriate use and policy noncompliance. The CCS Branch check
program is composed of a primary and a secondary check writer. The primary CCS Branch
check writer is the single highest spender in the purchase card program, with more than $786,000
in convenience checks during FYs 2010 and 2011—0.7 percent of total purchase card
expenditures. The CCS Branch’s annual review of three months of the CCS Branch convenience
checks did not identify all instances of policy noncompliance that we identified in the same
review period. In addition, we identified additional instances of policy noncompliance outside of
the CCS Branch’s limited three-month review period. We reviewed a judgmental sample of
492 checks from 2,240 checks the CCS Branch check writers issued during our audit period and
found that 70 (14 percent of those reviewed) transactions totaling $35,000 did not conform to
IRS policies. We did not review the PTSP, the PALS, and Office of Procurement programs for
policy noncompliance. Categories of noncompliance in the CCS Branch convenience check
program include checks written:
      Prior to receiving funding and approval.
      To merchants who accept credit cards.
      With insufficient documentation to support the check amount.
      As components of split purchases.
      For items on the restricted purchase list.




                                                                                         Page 22
                              The Purchase Card Program Lacks Consistent
                            Oversight to Identify and Address Inappropriate Use



Figure 9 shows the number of noncompliant CCS Branch convenience checks identified in each
category.
                            Figure 9: CCS Branch Convenience Check
                            Writers Program Noncompliance Identified

                     Program Noncompliance Category                                Checks        Amount
        Purchases made prior to funding verification or approval                      25           $7,880
        Merchant accepts purchase card                                                25           $9,672
        Insufficient documentation                                                      8          $4,529
        Split purchase                                                                  6          $8,788
        Restricted purchase list item                                                   3            $406
        Multiple issues   33
                                                                                        2          $1,132
        Exceeds micro-purchase limit for services ($2,500)                              1          $2,600
        Total                                                                         70         $35,007
      Source: Our analysis of a judgmental sample of 492 checks issued by CCS Branch check writers
      during FYs 2010 and 2011.

The CCS Branch review of 262 checks written from January through March 2011 identified
26 of the 70 instances of program noncompliance we identified.34 Of the 44 remaining checks,
22 checks were a part of the 2011 review period but were not identified by the CCS Branch.
However, the CCS Branch disagreed with our findings on noncompliance for 19 of the
22 checks. Eighteen checks were outside of the three-month oversight review period, and the
check writers themselves reported the remaining four checks to Labor Relations for
noncompliance. The CCS Branch check review was ineffective in identifying vendors who
accept credit cards and potential split purchases. In addition, limitations from selecting only a
three-month review period for the CCS Branch convenience check oversight review hinders the
IRS’s ability to detect check writer noncompliance with the program requirements. The review
weaknesses put the IRS at risk of violating applicable convenience check laws and regulations,
and the IRS cannot reasonably ensure that noncompliant purchases do not occur.



33
   One purchase was both a restricted purchase list item and made prior to funding verification or approval ($60.00)
and the other purchase was made prior to funding verification or approval and the merchant accepted the purchase
card ($1,071.84).
34
   The CCS Branch reviewed 295 checks that were written from January through March 2011. We focused on the
262 checks requested for payment for goods and services. The remaining 33 checks were for emergency salary
payments, checks that were voided, or checks where payment was stopped.


                                                                                                            Page 23
                          The Purchase Card Program Lacks Consistent
                        Oversight to Identify and Address Inappropriate Use



Reporting convenience check misuse
CCS Branch check writers could have identified and reported all of the program noncompliance
issues they experienced prior to issuing the requested convenience checks, but failed to do so.
CCS Branch check writers are the first line of defense against inappropriate use. The CCS
Branch check writer is responsible for ensuring that requests for payment via convenience check
meet all program requirements prior to issuing the check. At that time, the check writer may
report requesters for inappropriate use when they have obligated the Government for a payment
without receiving prior funding or approvals or when they are requesting a personal
reimbursement for purchasing items that could have been purchased with the purchase card.
CCS Branch check writers identified and correctly reported the inappropriate use to Labor
Relations for four of 70 instances of inappropriate use that we identified, yet they still issued the
checks.
The check writer may refuse to issue a check for items on the restricted purchase list, to a vendor
who accepts a credit card, for purchases that exceed the micro-purchase limit, or for purchases
that may be split to avoid the micro-purchase limit. All cases of noncompliance that we
identified could have been detected by the check writer prior to issuing the check, and in many
cases, could have been prevented by the check writer refusing to issue the check. Without the
check writers providing proactive detection of inappropriate use, the IRS is at risk of violating
applicable laws and regulations, and the IRS cannot ensure that inappropriate purchases do not
occur.
In addition, the CCS Branch did not report any of the 26 instances of policy noncompliance
identified in their program oversight review to Labor Relations for disciplinary review and
tracking. Enforcement is an essential component of the internal control environment, and
without enforcement of the managements controls, the IRS will continue to be at risk for
noncompliance with applicable laws and regulations.

Convenience check waiver expires soon
The IRS needs to develop a plan to replace the use of convenience checks for emergency salary
payments, cash advances for travel, and employee reimbursements such as the public
transportation reimbursements provided by the PTSP. Federal regulations restrict the use of
convenience checks for these types of payments; however, the IRS received a five-year waiver to
allow issuance of convenience checks for these restricted items. The waiver expires in 2014, and
the IRS does not currently have a plan in place to reimburse employees currently receiving PTSP
payments via convenience check or those with emergency salary or travel advance needs.
Employees may be at risk of not receiving their transportation subsidies and other necessary
reimbursements, or the IRS may be at risk of violating Federal regulations if the IRS does not
timely develop an alternate means of employee reimbursement.



                                                                                             Page 24
                         The Purchase Card Program Lacks Consistent
                       Oversight to Identify and Address Inappropriate Use



Recommendations
Recommendation 9: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should reemphasize to all purchase cardholders,
supervisors, funding officials, and approving officials that convenience checks are to be used
only as a payment of last resort and any requests to CCS Branch check writers for this payment
vehicle will be denied if they do not comply with program requirements.
       Management’s Response: The IRS agreed with this recommendation and will issue
       a communication to all employees regarding the appropriate use of the convenience
       check program.
The Chief, Agency-Wide Shared Services, should:
Recommendation 10: Consider expanding and improving CCS Branch convenience check
oversight reviews and requiring the CCS Branch to refer all inappropriate use to Labor Relations
for disciplinary review, tracking, and appropriate disciplinary action.
       Management’s Response: The IRS agreed with this recommendation and will
       implement quarterly reviews and will refer all confirmed inappropriate use identified to
       Labor Relations.
Recommendation 11: Develop and implement a plan to replace the use of convenience
checks for emergency salary payments, travel advances, PTSP payments, and other employee
reimbursements prior to the 2014 expiration of the waiver allowing the use of convenience
checks.
       Management’s Response: The IRS agreed with this recommendation and will
       develop a plan to replace the use of convenience checks for emergency salary payments,
       travel advances, PTSP payments, and other employee reimbursements prior to the
       expiration date of the current waiver.




                                                                                         Page 25
                               The Purchase Card Program Lacks Consistent
                             Oversight to Identify and Address Inappropriate Use



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective was to assess the effectiveness of IRS processes to identify questionable
and abusive purchase card transactions. To accomplish this objective, we:
I.         Assessed the adequacy of the purchase card internal control environment and agency
           compliance with established Federal regulations and agency policies, specifically directed
           at identifying and correcting instances of card misuse or inappropriate purchases.
           A. Reviewed Federal regulations, IRS policies, Citibank policies, and Office of
              Management and Budget guidance that govern the use of the Government purchase
              card and documented any deviations in IRS policy from the Federal guidance.
           B. Interviewed key IRS personnel from the CCS Branch, the Office of the Chief
              Financial Officer, Office of Procurement, and Labor and Employee Relations to
              understand and document their roles and responsibilities in the purchase card
              program, procedures and practices for executing those roles, and their concerns about
              potentially fraudulent or abusive use of the purchase card program.
           C. Identified, obtained, and evaluated purchase card reviews conducted by the CCS
              Branch to detect inappropriate purchase card transactions during the period
              October 1, 2009, through September 30, 2011.
           D. Assessed IRS processes for responding to cases where IRS employees were identified
              as having inappropriate purchase card transactions and assessed the conformity of the
              response with IRS policy.
               1. Reviewed ALERTS data containing prior cases of purchase card misuse from
                  October 1, 2009, through September 30, 2011, and documented types of misuse,
                  frequency, final case dispositions, and conformity of the final dispositions with
                  IRS policy.
               2. Documented the outcome of any cases of IRS purchase card abuse that were
                  criminally prosecuted.1
II.        Identified, obtained, and evaluated the sufficiency and reliability of electronic data
           received from Citibank and IRS systems to ensure that the amounts are reasonable and
           the dates were within the appropriate period.

1
    Only one instance of a purchase card abuse was prosecuted.


                                                                                             Page 26
                                The Purchase Card Program Lacks Consistent
                              Oversight to Identify and Address Inappropriate Use



           A. Obtained Citibank purchase card transactions from October 1, 2009, through
              September 30, 2011. We obtained documentation from the Data Center Warehouse
              that they verified the record counts and control totals when the data were received
              from Citibank. We determined completeness of the data files by identifying if the
              data contained blank fields or missing fields. We conducted reasonableness checks
              on selected data fields to ensure that the amounts were reasonable and the dates were
              within the period. We reconciled annual purchase card expenditures indicated in
              Citibank data to totals provided by the CCS Branch. We determined the data were
              reliable.
           B. Obtained Treasury Integrated Management Information System data for active and
              separated employees. We relied on validation procedures performed by the Data
              Center Warehouse because they regularly download and maintain these files. We
              compared a judgmental sample2 of the first 30 of 4,533 active purchase cardholders
              by card number to the IRS Discovery Directory to ensure that the cardholders were
              listed as employees. We compared a judgmental sample of the first 30 of
              336 separated purchase cardholders by card number to the IRS Discovery Directory
              to ensure that the cardholders are no longer listed as employees. We used a
              judgmental sample in both cases due to the large number of accounts and the limited
              audit resources available. We determined the data were reliable.
           C. Obtained ALERTS data for purchase card misuse. We determined completeness of
              the data files by identifying if the data contained blank fields or missing fields. We
              conducted reasonableness checks on selected data fields to ensure that the amounts
              were reasonable and the dates were within the appropriate period. We determined the
              data were reliable.
III.       Determined whether controls over the IRS’s purchase card program adequately prevent,
           detect, and deter questionable and abusive transactions.
           A. Assessed the effectiveness of processes and procedures to cancel purchase cards for
              employees who have separated from the IRS.
                1. Obtained and evaluated reviews conducted by the CCS Branch between
                   October 1, 2009, and September 30, 2011, and determined whether its processes
                   were effective for cancelling purchase cards for separated employees.
                2. Analyzed Citibank purchase cardholder data for FYs 2010 and 2011 to determine
                   whether the cardholders appeared in the Treasury Integrated Management
                   Information System as active employees.


2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.


                                                                                                               Page 27
                             The Purchase Card Program Lacks Consistent
                           Oversight to Identify and Address Inappropriate Use



                 a. For those cardholders who did not appear to be active employees, utilized
                    Treasury Integrated Management Information System separated employee data
                    to determine whether the cardholder had separated from the IRS.
                 b. Identified any cardholders who did not appear in either Treasury Integrated
                    Management Information System active or separated employee files.
             3. Analyzed Citibank purchase card transactions to identify unauthorized purchases
                made after the employee’s date of separation. If unauthorized purchases occurred
                after separation:
                 a. Determined whether the cardholder’s manager or other IRS official retrieved
                    the card upon the employee’s separation.
                 b. Determined whether the IRS identified the purchases and the actions taken to
                    resolve the issue.
        B. Assessed the corrective actions taken in response to our prior audit3 in identifying IRS
           employees who improperly split purchases into multiple transactions in order to
           circumvent single transaction limits.
             1. Identified, obtained, and evaluated reviews conducted by the CCS Branch to
                detect and deter split purchase transactions from April 4, 2011,4 through
                October 3, 2011.
             2. In order to re-perform the selected CCS Branch reviews, we identified purchase
                card transactions from April 4, 2011, to October 3, 2011, that were potential split
                purchases. This included groups of transactions made by a single cardholder with
                the same vendor, on the same day, and a total cost exceeding $3,000.
                 a. Requested supporting documentation to determine whether the purchases
                    complied with regulations and policies.
                 b. Determined whether the IRS identified the potential split purchase transactions
                    and what actions were taken to rectify the issue. We referred all potential split
                    purchase transactions that the CCS Branch did not identify for IRS review.
             3. Determined whether there are patterns of abuse where a single cardholder had
                multiple split purchase transactions from April 4, 2011, to October 3, 2011.


3
  TIGTA, Ref. No. 2011-10-075, Controls Over the Purchase Card Program Were Not Effective in Ensuring
Appropriate Use (Aug. 2011).
4
  In response to our prior report, the IRS implemented a change to split purchase reviews on May 3, 2011. The IRS
indicated that the split purchase review is now conducted using Citibank’s data mining tool, and 100 percent of the
transactions that posted April 4, 2011, and later are reviewed.


                                                                                                           Page 28
                              The Purchase Card Program Lacks Consistent
                            Oversight to Identify and Address Inappropriate Use



         C. Determined whether controls were adequate to ensure that cardholders were
            appropriately using convenience checks.
             1. Identified, obtained, and evaluated convenience check reviews conducted by the
                CCS Branch to prevent, detect, and deter inappropriate use of convenience checks
                for the period October 1, 2009, through September 30, 2011.
             2. Selected judgmental samples5 of convenience checks issued from
                October 1, 2009, through September 30, 2011, that represented the highest
                likelihood of questionable and abusive purchases as follows: the CCS Branch—
                492 of 2,240 checks written; the PALS—126 of 728 checks written; Office of
                Procurement—59 of 194 checks written; and the PTSP—all 3,895 checks written.
                We used a judgmental sample due to the large number of checks and limited
                auditor resources available.
                  a. Requested supporting documentation to determine whether the purchases
                     complied with regulations and policies.
                  b. Determined whether the IRS identified any of the transactions that we
                     identified as not appearing to comply with regulations and policies.
         D. Determined whether controls were adequate to reasonably ensure that the CCS
            Branch timely detects inappropriate purchase card transactions.
             1. Identified, obtained, and evaluated purchase card reviews conducted by the CCS
                Branch to prevent, detect, and deter inappropriate use of the purchase card for the
                period of October 1, 2009, through September 30, 2011.
             2. Selected a judgmental sample6 of 288 purchase card transactions from
                233,600 transactions made by IRS purchase cardholders from October 1, 2009,
                through September 30, 2011, that represented the highest likelihood of
                questionable and abusive purchases. We used a judgmental sample due to the
                large number of purchase card transactions and limited auditor resources
                available.
                  a. Requested supporting documentation to determine whether the purchases
                     complied with regulations and policies.



5
  We selected CCS Branch, PALS, and Office of Procurement transactions for review based on risk factors for
inappropriate use such as vendors who could be used for personal use, frequency of vendor use, or amounts nearing
the single transaction limit. We reviewed all PTSP transactions.
6
  We selected transactions for review based on risk factors for inappropriate use such as merchant category codes,
vendor names, item descriptions that could be used for personal use, or amounts nearing the single transaction limit.


                                                                                                            Page 29
                        The Purchase Card Program Lacks Consistent
                      Oversight to Identify and Address Inappropriate Use



              b. Determined whether the IRS detected the transactions that we identified as
                 potentially noncompliant with applicable regulations and policies.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Federal regulations; Department of the
Treasury Directives; and IRS policies, procedures, and practices for administering the purchase
card program and preventing, detecting, and reporting inappropriate use. We evaluated these
controls by interviewing management and analysts responsible for performing oversight reviews,
reviewing applicable documentation, testing the effectiveness of selected oversight reviews, and
analyzing selected transactions.




                                                                                        Page 30
                       The Purchase Card Program Lacks Consistent
                     Oversight to Identify and Address Inappropriate Use



                                                                           Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Alicia Mrozowski, Director
Heather M. Hill, Audit Manager
Darryl Roth, Audit Manager
Deanna G. Lee, Lead Audit Evaluator
Allison P. Meyer, Auditor
Jeffrey Stieritz, Auditor




                                                                                  Page 31
                       The Purchase Card Program Lacks Consistent
                     Oversight to Identify and Address Inappropriate Use



                                                                  Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
IRS Human Capital Officer OS:HC
Director, Employee Support Services OS:A:ESS
Director, Procurement OS:A:P
Director, Workforce Relations Division OS:HC:R
Director, Advisory and Insolvency SE:S:FC:AI
Director, Risk Management Division OC:CTO:SP:RM
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Counsel CC
       Chief, Agency-Wide Shared Services OS:A
       Chief Financial Officer OS:CFO
       IRS Human Capital Officer OS:HC




                                                                           Page 32
                             The Purchase Card Program Lacks Consistent
                           Oversight to Identify and Address Inappropriate Use



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Protection of Resources – $221,232 (Actual; $45,100 (see page 6) and Potential; $176,132
    (see pages 6 and 19).

Methodology Used to Measure the Reported Benefit:
To determine the protection of resources, we analyzed an extract of Citibank database purchases
made by IRS purchase cardholders between April 4, 2011, and October 3, 2011, to identify
potential split purchases. Our criteria included transactions that were:
       Performed by the same cardholder.
       Conducted with the same vendor.
       Charged on the same day.
       In excess of $3,000.
Our analysis identified a greater number of potential split purchases than the CCS Branch
previously identified in their split purchase oversight review. We identified an additional
244 transactions, of which the CCS Branch confirmed 34 transactions were components of
11 split purchases totaling $45,100. While the IRS may have had a valid business need to
purchase these items, it should have used another procurement method. For 136 potential split
purchase transactions totaling $154,000 that we identified, the CCS Branch did not make a
determination on whether or not the transactions were actually components of split purchases
due to a lack of published internal guidance on how to define split purchases of desktop supplies
such as paper, toner, and general office supplies. In addition, we analyzed a judgmental sample1
of 492 checks from 2,240 checks the CCS Branch check writers issued during our audit period.


1
 A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
We selected these transactions for review based on risk factors for inappropriate use such as vendors who could be
used for personal use, frequency of vendor use, or amounts nearing the single transaction limit.


                                                                                                          Page 33
                              The Purchase Card Program Lacks Consistent
                            Oversight to Identify and Address Inappropriate Use



We identified $22,1322 for checks written to merchants that accept credit cards, as components
of split purchases, and for an item that exceeded the micro-purchase limit for services ($2,500).
Type and Value of Outcome Measure:
   Funds Put to Better Use –Potential; $7,060 (see pages 15 and 19).

Methodology Used to Measure the Reported Benefit:
We identified $3,939 in improper give-away items. When these improper transactions were
presented to the IRS, it did not concur with our assessment. The IRS claims that Federal law
supports these purchases for training,3 decorative items,4 and CFC expenditures;5 however, our
review of the applicable authorities determined that some of the items purchased were improper.
We also identified one purchase cardholder who made 38 transactions totaling $2,655 for what
appeared to be personal purchases and provided potentially falsified receipts to justify the
purchases made. Information that the vendor provided to the credit card company indicates that
this cardholder purchased diet pills, romance novels, steaks, a smart phone, and baby-related
items such as bottles, games, and clothing with her purchase card; however, the cardholder
claims that the same transactions were for reference books and office supplies. We referred this
matter to TIGTA’s Office of Investigations for further review.
In addition, we identified $466 in CCS Branch convenience checks that were issued for items on
the restricted purchase list.




2
  This figure includes transactions where the merchant accepted the purchase card ($9,672); potential split purchases
($8,788), which exceeded the micro-purchase limit for services ($2,600); and one transaction that was identified as
having multiple issues, including the merchant accepted the purchase card ($1,072).
3
  Government Organization and Employees, 5 U.S.C. § 4109.
4
  60 Comp. Gen. 580 (1981), as well as the 41 C.F.R. § 101-26.103-2.
5
  67 Comp. Gen. 254 (1988), as well as the CFC regulations, 5 C.F.R. Part 950.


                                                                                                            Page 34
         The Purchase Card Program Lacks Consistent
       Oversight to Identify and Address Inappropriate Use



                                                    Appendix V

Management’s Response to the Draft Report




                                                             Page 35
  The Purchase Card Program Lacks Consistent
Oversight to Identify and Address Inappropriate Use




                                                      Page 36
  The Purchase Card Program Lacks Consistent
Oversight to Identify and Address Inappropriate Use




                                                      Page 37
  The Purchase Card Program Lacks Consistent
Oversight to Identify and Address Inappropriate Use




                                                      Page 38
  The Purchase Card Program Lacks Consistent
Oversight to Identify and Address Inappropriate Use




                                                      Page 39
  The Purchase Card Program Lacks Consistent
Oversight to Identify and Address Inappropriate Use




                                                      Page 40
  The Purchase Card Program Lacks Consistent
Oversight to Identify and Address Inappropriate Use




                                                      Page 41
